No. 20-7998

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

TUAN NGOC LUONG,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

REPLY BRIEF FOR PETITIONER
GEOFFREY A. HANSEN
Acting Federal Public Defender
Northern District of California
JOHN PAUL REICHMUTH*
ROBIN PACKEL
Assistant Federal Public Defenders
1301 Clay Street, Suite 1350N
Oakland, California 94612
(510) 637- 3500
John_Reichmuth@fd.org

* Counsel of Record for Petitioner

TABLE OF CONTENTS

INTRODUCTION

1

ARGUMENT

2

I.

THE NINTH CIRCUIT'S OPINION REFLECTS CONFLICT IN LOWER COURTS OVER
THE HOBBS ACT'S APPLICATION TO LOCAL ROBBERIES OF INDIVIDUALS.
2

II.

THE NINTH CIRCUIT'S OPINION IS WRONG ON THE MERITS

4

III.

THIS CASE IS AN IDEAL VEHICLE TO RESOLVE THESE CRITICAL ISSUES

8

CONCLUSION

10

1

TABLE OF AUTHORITIES
Page(s)

Federal Cases
Clay v. United States,
537 U.S. 522 (2003)

8

Gonzales v. Raich,
545 U.S. 1 (2005)

5, 6

Nguyen v. United States,
792 F.2d 1500 (9th Cir. 1986)

8

Pepper v. United States,
562 U.S. 476 (2011)

8, 9

Perez v. United States,
402 U.S. 146 (1971)

7

Taylor v. United States,
136 S. Ct. 2074 (2016)

1, 2, 3, 4, 5

United States v. Collins,
40 F.3d 95 (5th Cir. 1994)

8

United States V. Horne,
474 F.3d 1004 (7th Cir. 2007)

4

United States v. Luong,
965 F.3d 973 (9th Cir. 2020)

3, 6, 8, 9

United States v. Wang,
222 F.3d 234 (6th Cir. 2000)

7, 8

United States v. Person,
714 F. App'x 547 (6th Cir. 2017)

4

11

INTRODUCTION
Reflecting lower courts' confusion over the Hobbs Act's application to local
robberies and purely intrastate activities, the Ninth Circuit erroneously interpreted
the Act in this case to cover a local robbery of a local individual of cash, a debit card,
and a cell phone, facilitated through a false used car listing on a locally targeted
web site. The government offered no proof that the advertisement was seen by
anyone out of state, nor any proof that the robber targeted proceeds or inventory of
someone (like a drug dealer) engaged in a federally regulated activity (like drug
trafficking). If this street robbery of items in a man's pocket is covered under the
Hobbs Act merely because the robber used a fake used car listing on a local website
to target the victim, then the Act surely extends to nearly all modern robberies.
That result would stretch federal Hobbs Act jurisdiction deep into criminalprosecution territory that properly rests with the States.
The government's arguments against review are unpersuasive. Although three
circuits have now allowed prosecutions like the one in this case, and no circuit has
expressly held that the Hobbs Act does not cover a local-website-facilitated local
robbery, that is because many circuits have properly interpreted the Hobbs Act as
applying only to robberies that actually affect interstate commerce by, say,
targeting a business owner or, by their multiple nature, having a large aggregate
effect. Other circuits, which have erroneously interpreted the Hobbs Act to extend
to local robberies of individuals based on mere use of the channels of commerce, or a
mere potential impact on commerce, require this Court's guidance. On the merits,
the government ignores the critical fact distinguishing this case from Taylor v.

1

United States, 136 S. Ct. 2074 (2016): that it does not involve the targeting of
proceeds or inventory of someone engaged in a currently federally regulated activity
like drug trafficking. Finally, this case presents an unusually procedurally clean
and efficient means of addressing both critical issues together: the application of

Taylor beyond drug trafficking and the Hobbs Act's application to local robberies
that at most use the channels of interstate commerce.
ARGUMENT
I. The Ninth Circuit's Opinion Reflects Conflict in Lower Courts over the
Hobbs Act's Application to Local Robberies of Individuals.
The government offers two arguments, both unpersuasive, as to why this case
presents no conflict. It first attempts to portray as significant the fact that no court
of appeals has "found an insufficient nexus to interstate commerce for Hobbs Act
robbery where the crime occurred during a sales transaction initiated through an
online interstate marketplace." U.S. Br. Opp. 11. But it is precisely because
several circuits have interpreted the Hobbs Act differently from the Ninth Circuit
that such a case does not exist. As petitioner explained in his brief, several circuits
interpret the Act to require an actual (or attempted) effect on interstate commerce,
rather than the mere use of the channels of commerce or a potential, hypothetical
effect on commerce. As a result, one would not expect in those circuits to see a
Hobbs Act conviction for luring a single robbery victim through a fake local listing
in a newspaper or website that merely could have reached out-of-state individuals.
The government' second claim, equally unavailing, is that the Ninth Circuit's
opinion is consistent with other jurisdictions' reversals of Hobbs Act convictions for
2

local robberies of individuals, because in those other cases "the crime had only a
speculative effect on a business engaged in interstate commerce." U.S. Br. Opp. 13
(citing cases relied on by petitioner from the Fifth, Sixth, and Eighth circuits). In
the government's telling, this case is different because the victim was robbed
"during a 'commercial transaction facilitated by a website that forms an interstate
market" for used cars, U.S. Br. Opp. 14 (citing Luong, 965 F.3d at 983), a market
that "Congress can regulate." Id. The government also suggests that Taylor "may
resolve" any "substantial disagreement" among lower courts on the Hobbs Act's
reach because, in the government's view, Taylor extends the Hobbs Act to all
individual robberies using the Internet to advertise anything that Congress can
regulate. U.S. Br. Opp. 16.
This argument substantially misconstrues both the holding of Taylor and the
basic objection several circuits have to applying the Hobbs Act to local robberies of
individuals. Taylor did not hold that the Hobbs Act "extends to all robberies that
affect any of the 'categories of activity that Congress may regulate under its
commerce power." U.S. Br. Opp. 9 (quoting Taylor, 136 S. Ct. at 2079, 2080). The
relevant passage from Taylor simply noted the three categories of activities
"Congress may regulate under its commerce power": uses of channels of commerce,
instrumentalities of commerce, and activities that substantially affect commerce.

Taylor, 136 S. Ct. at 2079. Although intrastate robberies of individuals generally do
not substantially affect interstate commerce, Taylor noted that in the special case
where such a robbery "targeted a marijuana dealer's drugs or illegal proceeds" and
thus affected the "market for marijuana," id. at 2080-81, and where the "sale of
3

marijuana is commerce over which the Federal Government has jurisdiction," id. at
2080 (emphasis added), even an intrastate robbery of a marijuana trafficker will
affect interstate commerce.
Nothing in Taylor, then, casts doubt on the common-sense limits imposed by
other circuits in declining to extend the Hobbs Act to local robberies of individuals
absent an actual effect on interstate commerce. To be sure, Taylor recognizes such
an actual (or potential) effect where the robbery targets the proceeds or inventory of
a drug trafficker. But Taylor in no way suggests that the Hobbs Act extends to a
local robbery of an individual of typical wallet items (cash, ATM card, phone)
merely because it was facilitated through a fake local website listing for an item — a
used car —not currently regulated by Congress. Even the two other circuits that
have upheld a Hobbs Act conviction for an Internet-facilitated robbery have not
relied on Taylor; rather, they deemed the robber's use of the channels of interstate
commerce sufficient.1 In short, the conflict in lower courts over the Hobbs Act's
application to individual local robberies is real, significant, and in need of
resolution.
II. The Ninth Circuit's Opinion Is Wrong on the Merits.
The government's sole argument on the merits is that Taylor resolves this case,
because it, in the government's words, involves a "sales transaction for a used car"

See United States v. Horne, 474 F.3d 1004, 1006 (7th Cir. 2007) (relying preTaylor on eBay being "an avenue of interstate commerce"; "the buy and sell offers

1

communicated over it in this case created interstate transactions and were affected
by the defendant's fraud"); United States v. Person, 714 F. App'x 547, 551 (6th Cir.
2017) (relying on the robberies having "involv[ed] the internet, which is a channel of
interstate commerce").
4

on an interstate-accessible website and the "interstate market for resale of used
cars" is "a subject that 'Congress may regulate under its commerce power." U.S.
Br. Opp. 10 (quoting Taylor, 136 S. Ct. at 2080). Again, this argument substantially
misstates the holding of Taylor. Taylor did not hold that any robbery involving an
item that maybe regulated by Congress is a federal Hobbs Act robbery. Rather,

Taylor held that because Congress constitutionally determined a need to regulate
even local drug trafficking through the Controlled Substances Act ["CSA"], then a
robbery that targets a drug trafficker's inventory or proceeds "necessarily affects . . .
commerce over which the United States has jurisdiction." 136 S. Ct. at 2078.
Neither of the two critical facts in Taylor— an activity regulated by Congress,
and the robber's targeting of the proceeds or inventory of a person engaged in that
activity — is present here. On the first point, Taylor relied heavily on Congress's
determination that it had to regulate the intrastate drug market because of its
effect on the interstate drug market. The Taylor Court described its holding as
"dictated by" the Court's prior determination in Gonzales v. Rai ch, 545 U.S. 1
(2005). 136 S. Ct. at 2077. In Reich, this Court went through the analysis -missing in the opinion below -- to determine that Congress' commerce power
"includes the power to prohibit the local cultivation and use of marijuana in
compliance with California law" as exercised in the CSA, 545 U.S. at 5, because
marijuana cultivation, possession, and consumption are "an economic 'class of
activities' that have a substantial effect on interstate commerce" through their
"substantial effect on supply and demand in the national market."

Id. at 17, 19. It

is only because of this Commerce-Clause analysis of the CSA that the Taylor Court
5

was able to "graft. . . Raich onto the commerce element of the [Hobbs] Act." Taylor
136 S. Ct. at 2080. Only when Congress has constitutionally legislated, and there is
a comprehensive regulatory scheme in place, does the logic of Taylor apply.
In contrast, Congress does not regulate the used car market. It has not
determined that "leaving [purely intrastate used-car sales] outside the regulatory
scheme would have a substantial influence on price and market conditions," Raic.h,
545 U.S. at 19, nor have congressional findings or record evidence "establish[ed] the
causal connection between the production for local use and the national market" of
used-car sales. Id. at 20. Neither Congress, nor any court, nor the government in
this case, has provided even "a rational basis for believing that failure to regulate
the intrastate [market for used cars] would leave a gaping hole" in any federal
regulatory scheme. Id. at 22.
The Ninth Circuit's contrary interpretation of Taylor would federalize robberies
involving anything — banjos, bananas, artisanal soaps — sold on the Internet. After
all, Craigslist, eBay, and other Internet sites "facilitatep commercial transactions
beyond the local area and operate El as an interstate market for" these goods.

Luong, 965 F.3d at 982. "Thus, [under Luonds and the government's reasoning],
these transactions are 'commerce over which the United States has jurisdiction,"
and "Congress has the authority to regulate the national. . . market [in these
goods], including the purely intrastate [transactions therein], based on its aggregate
effect on interstate commerce." Id. at 982-83. If, as the government says, "[a]n
interstate marketplace for used cars falls squarely within" the Hobbs Act's
commerce definition, U.S. Br. Opp. 11-12, so does an interstate market for banjos.
6

Yet that result is absurd. As the government itself acknowledged in Taylor,2 it is
only "[wlhere the class of activities is regulated' by Congress that "the courts have
no power to excise, as trivial, individual instances of the class." Perez v. United

States, 402 U.S. 146, 154 (1971) (internal quotation marks omitted; emphasis
added).
On the second point, Taylor does not extend to cases, like this one, where the
robber did not target the proceeds or inventory of a federally regulated activity. As
the government argued in Taylor, stealing inventory or proceeds from a trafficker
naturally affects the drug business: either the dealer's inventory or assets need to
be resupplied.3 But the same is not true when the robber steals from a person who
shows up to buy a used car. As other circuits have recognized, such robberies have
no more inherent effect on interstate commerce than any other robbery of an

2

See Brief for the United States, Taylor v. United States, No. 16-6166, 2016 WL

183804, at "11-12 (Jan. 13, 2016) ("Congress exerted such authority over all
marijuana distribution in the Controlled Substances Act, and . . . [a]ccordingly, all
domestic trade in marijuana, even trade occurring wholly within a single State,
constitutes, as a matter of law, 'commerce over which the United States has
jurisdiction . . . ."); id. at '22-23 ("[B]ecause the [Hobbs] Act's jurisdictional
element is also satisfied by showing an effect on any other 'commerce over which the
United States has jurisdiction,' . . . the government can carry its burden by
presenting proof that the charged robbery has the requisite effect on a particular
type of economic activity over which, as a matter of law, the United States has
regulatory 'jurisdiction.' In such instances, federal regulatory jurisdiction exists
over the relevant class of economic activities, and individual robberies within that
class are encompassed within the Hobbs Act."; emphases in original).
3 See Brief for the United States, Taylor v. United States, No. 14-6166, 2016 WL
183804, at *26 (Jan. 13, 2016) ("Marijuana dealers engage in the quintessentially
commercial activity of selling a product, and robberies of their marijuana as a
matter of practical economics will have a non-de minimis effect on interstate
commerce.").
7

individual.4 See, e.g., United States v. Wang, 222 F.3d 234, 240 (6th Cir. 2000)
("[W]here, as here, the criminal act is directed at a private citizen, the connection to
interstate commerce is much more attenuated."). Absent some showing that the
robber targeted the victim because of their business, id., or depleted the assets of an
interstate business, United States v. Collins, 40 F.3d 95, 100 (5th Cir. 1994), the
affects-commerce Hobbs Act element is not satisfied.
III. This Case Is an Ideal Vehicle to Resolve These Critical Issues.
The government's two arguments as to why this case is not an ideal vehicle for
review also are misplaced. First, the fact that the Ninth Circuit remanded
petitioner's case for resentencing is irrelevant to the reasons to grant review in this
case. The issues raised here relate to petitioner's Hobbs Act conviction, which is
final and was affirmed by the Ninth Circuit. Luong, 965 F.3d at 990; see Clay v.

United States, 537 U.S. 522, 527 (2003) (noting that a decision is "finallir for
certiorari purposes after "entry of the judgment or order sought to be reviewed")
(quoting S. Ct. Rule 13(3)). In affirming petitioner's conviction, the Ninth Circuit
entered a decision" on an "important federal question." S. Ct. Rule 10(a). In turn,
the limited remand solely for resentencing in no way affects petitioner's Hobbs Act
conviction or the issues raised here. See Nguyen v. United States, 792 F.2d 1500,
1502 (9th Cir. 1986) ("[T]he mandate of an appellate court forecloses the lower court

To the extent the government suggests that petitioner's Hobbs Act conviction was
based on the victim's being engaged in used-car dealing, U.S. Br. Opp. 2, 6, 14, it is
wrong. In fact, the district court explicitly precluded that argument before trial.
ER 672-75. During trial, the district court allowed the victim to offer "basic context
about the offense" by testifying that he planned to repair and resell the particular
listed car, but not "that, as a general matter, he fixes up and sells cars." ER 674-75.
4

8

from reconsidering matters determined in the appellate court."). Indeed, this Court
has granted review where a sentence was the subject of a federal appellate court's
remand. See, e.g., Pepper v. United States, 562 U.S. 476, 484 (2011) (noting that
Court granted defendant's petition for writ of certiorari challenging sentence filed
only after court of appeals remanded for resentencing, its mandate had issued, and
district court had initiated resentencing). Moreover, forcing petitioner to wait until
an appeal of his resentencing to seek review could take years, running out his
sentence.5 Thus, the limited remand for resentencing in no way detracts from the
reasons to grant review here.
Next, the government unpersuasively insists that the issues in this case are
unlikely to recur because, in future Hobbs Act prosecutions involving the Internet,
prosecutors could present additional proof of an actual effect on commerce via "data
transmissions to computer servers located out of state." U.S. Br. Opp. 17 (noting
that such proof was offered at petitioner's retrial). There are two problems with
this argument. First, given the government's overbroad reading of Taylor as
reaching intrastate robberies involving any item capable of regulation by Congress,
and given some courts' view of the Hobbs Act as reaching any robbery using the

channels of interstate commerce, there is no reason to assume the government will
limit itself to prosecutions involving actual effects on commerce or will insist on
introducing evidence it deems unnecessary to its case. Second, it remains an open

5 The offense occurred in early 2015, U.S. Br. Opp. 2; petitioner's first trial was in
late 2015, and his second trial was in early 2016; the Ninth Circuit issued its
opinion in mid-2020; and petitioner filed his petition for writ of certiorari in mid2021. U.S. Br. Opp. 1-2. According to the Bureau of Prisons website, petitioner is
scheduled to be released from a 144-month sentence of imprisonment in June 2025.

9

question whether a Hobbs Act conviction for a local robbery of an individual may be
based on such a "data-transmission theory." See Luong, 965 F.3d at 983 (declining
to rely on theory). Several circuits have declined to extend the Hobbs Act to local
robberies of individuals based solely on an interstate communication during the
robbery, where the robbery itself has no effect on interstate commerce. In addition,
even if the government were to present this "traveling electrons" theory in future
Internet-facilitated robbery cases, a jury might reject such an argument, leaving
trial courts to decide how to instruct jurors on whether a mere potential theoretical
effect on commerce, like that in this case, is sufficient. In short, this case remains
an ideal vehicle to resolve the recurring issues related both to the scope of Taylor
and the Hobbs Act's application to local robberies of individuals.
CONCLUSION
For the reasons above and in Mr. Luong's petition, the Court should grant this
petition for a writ of certiorari.
Respectfully submitted,
GEOFFREY A. HANSEN
Acting
;-e —Defender
Nor
ict of alifornia

September 21, 2021

JOHN
L REICHMUTH
OB PACKEL
As stant Feder Public IIIDefenders

10

